   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
        FY 2004 AND FY 2003
 Saint Lawrence Seaway Development Corporation

          Report Number: QC-2005-004
         Date Issued: November 9, 2004
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review of                     Date:    November 9, 2004
           Audited Financial Statements for
           FY 2004 and FY 2003, Saint Lawrence Seaway
           Development Corporation
           QC-2005-004

  From:    Alexis M. Stefani                                        Reply to
           Principal Assistant Inspector General                    Attn of:   JA-20
            for Auditing and Evaluation

    To:    Saint Lawrence Seaway Development
           Corporation Administrator

           The audit of the Saint Lawrence Seaway Development Corporation’s Financial
           Statements as of and for the fiscal year ended September 30, 2004, was completed
           by Dembo, Jones, Healy, Pennington, & Marshall, P.C., of Rockville, Maryland
           (see Attachment). We performed a quality control review of the audit work to
           ensure that it complied with applicable standards. These standards include the
           Chief Financial Officers Act, Government Corporation Control Act, Office of
           Management and Budget Bulletin 01-02, Audit Requirements for Federal Financial
           Statements, and Government Auditing Standards. The audit of the Saint Lawrence
           Seaway Development Corporation’s Financial Statements as of and for the year
           ended September 30, 2003, was conducted by another auditor who issued a report
           dated November 14, 2003.

           The Dembo, Jones, Healy, Pennington, & Marshall, P.C. audit report concluded
           that the financial statements presented fairly, in all material respects, the financial
           position of the Saint Lawrence Seaway Development Corporation as of
           September 30, 2004, and the results of its operations and its cash flows for the year
           then ended in conformity with U.S. generally accepted accounting principles. We
           concur with this unqualified or “clean” opinion. The report did not include any
           reportable internal control weaknesses or material non-compliance with accounting
           principles, laws, and regulations.
In our opinion, the audit work complied with applicable standards. Therefore, we
are not making any recommendations, and a response to this report is not required.

We appreciate the cooperation and assistance of representatives of the Saint
Lawrence Seaway Development Corporation and Dembo, Jones, Healy,
Pennington, & Marshall, P.C. If we can answer questions or be of any further
assistance, please call me at (202) 366-1992 or Ted Alves, the Assistant Inspector
General for Financial and Information Technology Audits, at (202) 366-1496.

Attachment
                                        #
